State of Illinois's Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness Program Funds, Illinois Department of Public Health, A-05-03-00081
Department of Health and Human Services
Office of Inspector General -- AUDIT
"State of Illinois's Efforts to Account for and Monitor Sub-Recipients' Use of Bioterrorism Hospital Preparedness
Program Funds, Illinois Department of Public Health," (A-05-03-00081)
October 31, 2003
Complete Text of Report is available in PDF format
(170 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Illinois Department
of Community Health (State agency):  (i) properly recorded, summarized and reported bioterrorism preparedness transactions
in accordance with the terms and conditions of the cooperative agreements and (ii) had controls and procedures to monitor
sub-recipient expenditures of Health Resources and Services Administration funds.  We determined that the State
agency generally accounted for program funds in accordance with the terms and conditions of the cooperative agreement.  However,
the State agency did not segregate expenditures by phase, within phase, or by priority area.  We were, however,
able to determine that they were in compliance with the budget restrictions by analysis of the accounting data provided.  We
also found the State agency had controls and procedures to monitor sub-recipient expenditures of Program funds.  In
response to our inquiry as to whether the State agency reduced funding to existing public health programs, State officials
replied that Program funding had not been used to supplant existing State or local programs.  We recommended the
State agency implement procedures to comply with the new requirements effective August 31, 2003 and begin tracking expenditures
by priority area, critical benchmark, and by funds allocated to hospitals and other health care entities.  The State
agency concurred with our findings and recommendations.